<html>
<title> - NOMINATIONS OF HON. CAROL W. POPE AND THOMAS M. BECK</title>
<body><pre>[Senate Hearing 110-983]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 110-983

          NOMINATIONS OF HON. CAROL W. POPE AND THOMAS M. BECK
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                 ON THE

 NOMINATIONS OF HON. CAROL W. POPE AND THOMAS M. BECK TO BE MEMBERS OF 
                 THE FEDERAL LABOR RELATIONS AUTHORITY

                               __________

                           SEPTEMBER 11, 2008
                               ____________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


[GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PRINTING OFFICE
45-576 PDF                    WASHINGTON: 2010
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800  Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1

                               WITNESSES
                      Thursday, September 11, 2008

Hon. Eleanor Holmes Norton, Delegate of the District of Columbia, 
  U.S. House of Represenatives...................................     2
Hon. Carol W. Pope to be a Member of the Federal Labor Relations 
  Authority:
    Testimony....................................................     4
    Biographical and professional information....................    17
    Responses to pre-hearing questions...........................    31
    Letter from U.S. Office of Government Ethics.................    42
Thomas M. Beck to be a Member of the Federal Labor Relations 
  Authority:
    Testimony....................................................     5
    Biographical and professional information....................    43
    Responses to pre-hearing questions...........................    51
    Letter from U.S. Office of Government Ethics.................    59


          NOMINATIONS OF HON. CAROL W. POPE AND THOMAS M. BECK

                              ----------                              


                      THURSDAY, SEPTEMBER 11, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    Today the Committee on Homeland Security and Governmental 
Affairs meets to consider the nominations of Carol Waller Pope 
and Thomas Beck to be members of the Federal Labor Relations 
Authority (FLRA). Both Ms. Pope and Mr. Beck have had long 
careers dealing with labor-management relations--Ms. Pope 
working for the Federal Government at the FLRA and Mr. Beck 
working in the private sector at Jones Day. I want to welcome 
our nominees along with their families and friends to the 
Committee today.
    Congress acted to allow Federal workers the right to 
bargain collectively because labor organizations and collective 
bargaining are in the public interest. The right of employees 
to unionize and bargain contributes to the effective conduct of 
public business and facilitates the amicable settlement of 
workplace disputes.
    Because the FLRA is responsible for resolving disputes 
between labor unions and the government, the positions to which 
Ms. Pope and Mr. Beck have been nominated are among the most 
important to Federal employees and the ability of the Federal 
agencies to meet their missions. A well-managed organization 
understands the need to invest in its workforce. To be an 
employer of choice and promote high employee morale, employees 
must have input in management decisions.
    When managers vet proposed changes to working conditions 
with affected employees, they better understand their practical 
impact on an employee's ability to do his or her job, and on 
workforce morale as well.
    When managers restrict the ability of the employees to 
bring their concerns to the table and try to eliminate 
collective bargaining, they undermine their agencies' missions, 
lower employee morale, and make the organization an employer of 
last resort.
    The FLRA is at a critical juncture given the shifting 
nature of the Federal labor relations system. As such, the 
positions to which Ms. Pope and Mr. Beck have been nominated 
will face new challenges and take on renewed importance.
    Over the past 8 years, we have seen proposed changes to 
Federal labor law at the Departments of Homeland Security and 
Defense which would have significantly impacted the FLRA and 
Federal workers. If implemented, I believe that employees at 
those agencies will not be able to have their cases decided by 
an impartial adjudicator. In addition, the Administration 
proposed additional changes to the Federal labor-management 
system government-wide through the Working for America Act in 
2005. These changes would have further eroded workers' rights. 
I am pleased that the Administration's proposals have not been 
enacted. However, these proposals sent the wrong message to 
Federal employees. It has diminished labor-management relations 
in the Federal Government and employee morale.
    In my opinion, workplace changes are now viewed with more 
suspicion. Workplace disputes have taken on a more adversarial 
nature. The reinstatement of labor-management partnerships is 
essential, and I hope the next Administration will work with 
the FLRA to improve labor relations and alternative means to 
resolving disputes.
    The challenges facing the Federal labor-management system 
have taken a toll on the FLRA. Like other Federal agencies, 
FLRA is facing a human capital crisis. The prospect of 
legislative changes significantly altering the functions and 
workload of the agency have left the FLRA with a high number of 
vacancies and low employee morale. In fact, the FLRA placed 
last among small agencies in the Partnership for Public Service 
2007 Best Places to Work rankings. The new leadership at the 
FLRA must take action to address the agency's human capital 
crisis and make the FLRA an employer of choice.
    I look forward to discussing these issues with the nominees 
to get their views on how to improve operations at FLRA and the 
state of labor-management relations in the Federal Government.
    Ms. Pope and Mr. Beck, again, I welcome you and 
congratulate each of you on your nomination.
    Now I would like to recognize Delegate Eleanor Holmes 
Norton. We are happy to have you with us today. Welcome to the 
Committee. I know you have a tight schedule, so please proceed 
with your introduction of Ms. Pope.

   TESTIMONY OF HON. ELEANOR HOLMES NORTON, DELEGATE OF THE 
      DISTRICT OF COLUMBIA, U.S. HOUSE OF REPRESENTATIVES

    Ms. Norton. Well, thank you very much, Mr. Chairman, and I 
know about your schedule, and I am very appreciative that you 
have made time to get to this business before recess.
    I am here to introduce Carol Pope, a Washingtonian, and a 
present member of the Federal Labor Relations Authority. You 
have spoken, I think, very well about the importance of this 
agency to hundreds of thousands of Federal employees and to the 
Federal Government itself, so this is a nomination of some 
importance to the country.
    Ms. Pope has been nominated by two Presidents--President 
Clinton and President Bush. You are familiar with her extensive 
qualifications. Suffice it for me to say that she is an 
attorney, admitted to the U.S. Supreme Court, and Federal 
Courts of Appeals. She began her career in the Office of the 
Solicitor, Department of Labor, in 1979, moving almost 
immediately in 1980 to the FLRA, and has spent most of her 
career there, indeed, including as Assistant General Counsel.
    Mr. Chairman, it is always gratifying to see a career 
Federal employee rise through the ranks to become a member of 
the commission or of the governing authority itself. And that 
is what the record of Carol Pope has allowed her to do in the 
opinion of the two Presidents who have nominated her, and now 
she is being renominated for another term. I am very pleased 
and very proud of her and very pleased to offer her to you as 
an exceptionally well qualified candidate to be a member of the 
FLRA.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Well, thank you very much, Delegate Norton. 
I really appreciate your remarks and your support of Ms. Pope.
    Ms. Norton. Thank you.
    Senator Akaka. Thank you.
    Ms. Pope and Mr. Beck have filed responses to a 
biographical and financial questionnaire, answered pre-hearing 
questions submitted by the Committee, and had their financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record, with the exception of the financial data, which are on 
file and available for public inspection in the Committee 
offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Therefore, 
Ms. Pope and Mr. Beck, I ask you to both please stand and raise 
your right hand. Do you solemnly swear that the information you 
are about to submit to the Committee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Ms. Pope. I do.
    Mr. Beck. I do.
    Senator Akaka. Thank you very much. Let it be noted in the 
record that the witnesses answered in the affirmative.
    Ms. Pope and Mr. Beck, I know that your families and 
friends are here at this time, and I am glad I had the 
opportunity to say hello to them. I want to give you the 
opportunity to present them formally to the Committee. So, Ms. 
Pope, will you please introduce your family to the Committee?
    Ms. Pope. Thank you, Mr. Chairman. I would like to 
introduce my brother-in-law, Wallace White; my sister, Lynda 
White, from Philadelphia; my niece, Evin Jethroe; and friend, 
Fred Grigsby.
    Thank you.
    Senator Akaka. Thank you. Thank you very much.
    Mr. Beck, will you please introduce your family?
    Mr. Beck. Chairman Akaka, my wife, Amanda Beck, is here 
with us today. And her parents, Colonel and Mrs. Bruce J. Host, 
are here from Tallahassee, Florida, and I want to thank them 
for coming here to be with me today.
    Senator Akaka. Thank you. Thank you very much and welcome 
to all of you. We are happy to have you here today. I can see 
that both of you have a lot of strong support, not only from 
family but friends as well here.
    So, Ms. Pope, will you please proceed with your statement?

 TESTIMONY OF HON. CAROL W. POPE TO BE A MEMBER, FEDERAL LABOR 
                      RELATIONS AUTHORITY

    Ms. Pope. Thank you, Mr. Chairman.
    Chairman Akaka, I am honored to appear before you today as 
the President's nominee to be a member of the Federal Labor 
Relations Authority. I would like to thank Congresswoman Norton 
for her support and her kind words on my behalf. Finally, I 
would like to thank the staff members of the Committee for 
their work and for their assistance in scheduling this hearing.
    I appeared before this Committee over 8 years ago when I 
was first nominated and confirmed as a member of the Federal 
Labor Relations Authority. At my swearing-in, the youngest 
member of my family--my niece, Evin Jethroe--who was 10 years 
old at the time, held our family Bible. Today I am proud to say 
that Evin is here in Washington and here at this hearing 
because she is a freshman at George Washington University. I 
thank Evin and all of my family and extended family and friends 
for their support.
    I also want to acknowledge my colleagues and friends from 
the Federal Labor Relations Authority who are here. There are 
those in the hearing room today and many more who are watching 
this proceeding through the live video feed. I commend all of 
the FLRA employees for their interest in this process and for 
their commitment to the mission of the agency.
    In the 8 years that I have served as a member, the Federal 
sector labor relations landscape has changed. I note with 
sadness that today is the anniversary of one of the most 
horrific acts of domestic terrorism experienced in my lifetime. 
Federal employees, both personally and professionally, have, 
like the entire country, suffered from the impact of those 
tragic acts. In addition, during the last 8 years, the 
Department of Homeland Security was created, which consolidated 
functions from 22 separate agencies with separate bargaining 
units and collective bargaining agreements.
    Legal issues regarding proposed personnel and labor 
relations systems at DHS as well as the Department of Defense 
dominated labor-management discussions at all levels over these 
years. Also during this time, numerous other pay and personnel 
reforms were contemplated, and some were instituted. Agency 
reorganizations, employee turnover due to the retirement 
bubble, and pay and personnel changes have tested and 
oftentimes strained the relationships between labor and 
management.
    I pledged at my first hearing before this Committee and I 
pledge now, if I am confirmed, to ensure that the FLRA fulfills 
its important mission by adjudicating disputes fairly, 
impartially, and expeditiously, and by producing quality 
decisions that enhance the stability of labor-management 
relations in the Federal Government.
    I also pledge my support to work with my colleagues, 
including presidential appointees and others, to assist the 
FLRA in discharging its statutory leadership role in 
establishing labor-management policies and guidance throughout 
the Federal sector. I greatly appreciate the opportunity to 
appear with Thomas Beck and look forward to welcoming him as 
chairman to the FLRA, which has been my professional home for 
the last 28 years.
    Thank you very much. I am happy to answer any questions you 
might have.
    Senator Akaka. Thank you very much for your statement, Ms. 
Pope.
    Now, Mr. Beck, your statement, please.

   TESTIMONY OF THOMAS M. BECK TO BE A MEMBER, FEDERAL LABOR 
                      RELATIONS AUTHORITY

    Mr. Beck. Chairman Akaka, thank you.
    First of all, I want to say it is an honor to be here 
before you today, and I want to thank you for holding this 
hearing and permitting Ms. Pope and myself to appear here, and 
for your warm reception today as well. Thank you very much for 
that.
    As you know, the FLRA has lacked a quorum since Chairman 
Cabaniss stepped down roughly 2 months ago, and I know that 
your prompt efforts since then to consider my nomination and 
that of Ms. Pope are appreciated by the people at the agency 
and by the parties that the agency serves. So thank you again 
for moving to hold this hearing.
    I also want to join Ms. Pope in thanking the Committee 
staff who did help us work through this process quite quickly, 
and they were very kind and generous with their time and 
helpful to me, to whom this process is new, in understanding 
the process. And I also want to thank the folks from the FLRA 
who are interested and are here with us today to observe what 
we talk about today.
    Senator Akaka, a working and productive FLRA is integral to 
the proper functioning of our Federal agencies. The FLRA's 
ultimate mission is to foster constructive labor relations in 
the Federal sector. It does so when it resolves impartially and 
expeditiously the disputes that are presented to it by Federal 
agencies and by the labor organizations that represent the 
employees of those agencies.
    Currently, the FLRA has a backlog of close to 400 cases. If 
I am confirmed and designated chairman, my most pressing 
priority will be to address and to reduce this backlog of cases 
to the greatest extent possible, given, of course, that it 
seems, for the near term at least, the Authority will have two 
members rather than the full complement of three, most likely. 
And I suppose sometimes Ms. Pope and I will agree and sometimes 
we will disagree when it comes to the disposition of particular 
cases. But I believe that we will both work to try to do 
something about that backlog, which is larger than it should 
be.
    If I am confirmed and designated chairman, another priority 
will be to assess the human capital needs at the FLRA. You 
referred to this, Senator Akaka, in your own statement a few 
moments ago, and I know that this is a pressing issue at the 
agency. And I understand it is a pressing issue for the parties 
that the agency serves as well.
    The agency staff overall is substantially reduced from 
where it was 5 years ago, and in particular, the case-writing 
staff, which is so directly involved in the agency's core 
function of processing cases, as I understand it, is just 
slightly over half of what it was 5 years ago. Now, these very 
significant reductions in personnel do not correlate, so far as 
I know, to any concomitant reduction in the agency's statutory 
mission or its responsibilities. And so this raises the 
question, at least, as to whether the FLRA is adequately 
staffed. And as I sit here today, I do not know the magic 
number in terms of what the proper number of employees at the 
agency might be, but it is certainly a matter that I think 
warrants the immediate and serious attention of the FLRA's next 
chairman.
    And I also just want to note with Ms. Pope here that I 
really very much look forward to working with her in a 
collaborative way to address these and the other challenges 
that face this agency. Ms. Pope generously reached out to me 
roughly a year ago when I was nominated and congratulated me on 
my nomination, and since then we have had several friendly, and 
I think productive, discussions. And what I have learned about 
Ms. Pope is that she is not just a bright and gracious 
individual, but she is also someone who really knows the ins 
and outs of this particular agency because she has served there 
in many positions over the years. And so if I am confirmed and 
am permitted to take on the role of chairman, I know that she 
will be an invaluable resource that I will look to to help me 
get acquainted with and understand the inner workings of this 
agency.
    With that, Mr. Chairman, I want to thank you again for 
holding the hearing today, and I will be pleased to answer any 
questions you may have.
    Senator Akaka. Well, thank you very much for your 
statement, and I look forward to you working together.
    I will begin with the standard questions this Committee 
asks of all nominees, and so I ask for your responses to these 
questions.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Pope. No.
    Mr. Beck. No.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Pope. No.
    Mr. Beck. No.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted Committee of Congress if you are confirmed?
    Ms. Pope. Yes, Mr. Chairman.
    Mr. Beck. Yes.
    Senator Akaka. Thank you very much for your responses.
    My first policy question is to both of you. As I mentioned 
in my opening statement, I believe that the state of labor 
relations in the Federal Government is at an all-time low. 
Several years ago, President Clinton established labor-
management partnerships throughout the Federal Government to 
improve cooperation between labor and management. In my view, 
these partnerships were a great success, but shortly after 
taking office, President Bush abolished them. Last year, I 
introduced legislation to reinstate the partnerships.
    What are your views on the use of labor-management 
partnerships? And what role do you believe the FLRA should play 
in improving labor-management relations? Ms. Pope.
    Ms. Pope. Thank you. As you stated previously, the FLRA had 
a leadership role in facilitating and assisting parties in 
developing productive labor-management partnerships after the 
Executive Order was enacted. We enjoyed a lot of success in 
collaboration with agency leadership and union leadership to 
facilitate the institution of partnerships as well as to 
facilitate the ongoing management of those partnerships. It 
certainly benefited the FLRA in that a lot of issues were 
resolved before cases were filed. In instances where the 
parties had filed numerous charges, we were able to employ the 
partnership principles to resolve some of those cases amicably 
without the need for additional resources of the FLRA or time 
away from the workplace for the employees engaged in those 
labor-management disputes.
    So, in my view, there has been a lot of success in the 
past. Anecdotally, I understand that some labor-management 
partnerships continue today voluntarily in the absence of an 
Executive Order, and I certainly would welcome any legislation 
that would require agencies to take another look and engage in 
labor-management partnerships.
    Senator Akaka. Thank you. Mr. Beck.
    Mr. Beck. Senator Akaka, I know that President Bush 
rescinded President Clinton's Executive Order. I do not think, 
however, that really affirmatively prohibits informal labor-
management partnerships or discussions that may, and I think 
sometimes do, take place in agencies. And as a general 
proposition, I think more talking is probably good between 
parties who potentially could come into dispute with one 
another. I think it is better to talk and try not to let that 
dispute reach a head, if at all possible. And to the extent the 
management of agencies wants to talk informally and feels that 
it is a good idea to talk informally with labor organizations 
and that the labor organizations feel the same way, I think 
talking is a good thing.
    And if they can avoid even having a dispute that they bring 
to the Federal Labor Relations Authority, I think that is great 
for all concerned. Then if they have a dispute that they cannot 
resolve before they bring it to the Authority, there are 
different aspects and avenues for alternative dispute 
resolution that the Authority can make available. Perhaps if 
and when I am there, I suppose I might make an assessment as to 
whether we ought to have a little more of that. Perhaps we 
should. But with my experience in the private sector, more 
talking between the parties is, generally speaking, a good 
thing. And even if they do develop a dispute, sometimes it 
makes a lot of sense to still talk informally and see if the 
dispute can be resolved, either through bilateral negotiations 
or through mediated settlement discussions, before full-blown 
litigation ensues.
    As a general proposition, I am in favor of talking.
    Senator Akaka. Well, as I mentioned I have introduced 
legislation, S. 2197, to reinstate labor-management 
partnerships in the Federal Government. And I believe that bill 
would certainly help what you just mentioned in providing a 
process for talking to continue on these problems.
    Mr. Beck, you have had extensive experience in the private 
sector representing corporations in disputes with labor unions. 
Will you please explain how you will make the shift from 
representing management in such disputes to being a neutral 
adjudicator?
    Mr. Beck. Yes, Senator. Not an unexpected question given my 
background. It is true that I have spent the greater bulk of my 
legal career advocating for employers in the private sector 
when they have had disputes with their employees or with labor 
unions, and sometimes with the government as well. I was hired 
to do a job as an advocate, and I did it, hopefully fairly well 
most of the time, and had a little bit of success at that. But 
I understand full well that the job that I am nominated for is 
a different job, and it is a job where I am not being paid to 
be an advocate. I am being paid to try to be, as best I can, an 
impartial decider of cases in my role as a member of the 
Authority looking at cases that are presented to the Authority.
    I am not ideological on this, Senator. My law firm made a 
policy decision many years ago before I arrived that we would 
represent management, and as far as I know, we have never 
represented labor unions. I certainly have not personally. But 
it is also true that I have never represented Federal agencies 
either, and so as I look at the job of member and chairman of 
the Federal Labor Relations Authority--I have never represented 
a labor union as an advocate. I have never represented a 
Federal agency as an advocate. And I suppose one might 
analogize in some ways the management of Federal agencies to 
the management of private sector employers that I have 
represented. But to me, Senator, a Federal agency is really a 
different animal from a private sector employer. I don't equate 
the two or really view them philosophically as equivalents.
    And so this really will be a new milieu for me, getting 
into the Federal sector with Federal agencies and Federal 
sector labor unions. And so I am really quite confident I will 
be able to be impartial and look at these cases that are 
presented to me.
    One more comment about my work in the private sector. I 
must say, although I have been doing it for several years, I am 
far from coming to a conclusion that all management is made up 
of good guys or all unions and union members are good guys, or 
the reverse. I have seen management be good guys and bad guys 
sometimes in different circumstances, and I have seen labor 
unions be good guys and, frankly, bad guys sometimes, too. And 
so I just do not really have a view that one is always right or 
one is always wrong.
    Senator Akaka. Mr. Beck, no organization can succeed 
without investing in its human capital. As you know, the FLRA 
placed last--and I mentioned that in my opening statement--in 
the most recent Best Places to Work rankings by the Partnership 
for Public Service, and it has a high number of vacancies. 
Since President Bush has indicated that he would designate you 
as chairman of the FLRA if you are confirmed, please explain 
your strategy for addressing the FLRA's human capital 
challenges and improving employee morale.
    Mr. Beck. Well, Senator, I do know that is one of the most 
important challenges that is facing this agency, and I think I 
noted in my opening remarks that there has been a substantial 
reduction in the personnel at this agency over the last few 
years, and you noted that as well. And I am very well aware of 
the study of small agencies in which the Authority, the FLRA, 
ranked dead last. It will absolutely be my mission to do 
something about that.
    Obviously, I am not there yet, and so I do not think I can 
lay out in great detail exactly how I would do it step by step, 
but I must tell you that what I want to do, if and when I 
arrive at the Authority, is to go on a listening tour, if you 
will, and that is kind of a trite way to put it, perhaps, but I 
really want to talk to Ms. Pope in great detail about what she 
thinks is going on at this agency and what needs to be done in 
terms of human capital and other challenges. And I want to talk 
to the staff at all levels at the FLRA and find out what they 
think is going right and what they think is going wrong right 
now and what can we do about that.
    In my experience, one way to improve employee morale and to 
get employees and staff on your side is to just really 
communicate in an open and fair way with them and let them know 
that you care about what they have to say and that you respect 
what they have to say. And I don't suppose I would always agree 
with what everyone on the staff says. I am sure there would be 
a great many different views and opinions about priorities and 
about what is working and what is not. But I intend to collect 
as much information as I can from the people who have been 
there much longer than I have been--because I have not been 
there at all, frankly--and try to find out what is going on and 
what we can do to improve morale. If morale is so poor, why is 
it so poor? And what is within our power to do to improve that? 
And I do not really know the answer in detail right now as I 
sit here, but I do know I am going to figure it out when I get 
over there. And I am going to look to the people, the person 
right next to me and the other people who are there, who know 
about what is going on in that agency and let them know I want 
to know what they think. We will do whatever we can within our 
power and within our budget to try to increase morale and make 
this, as you said in your opening remarks, an employer of 
choice, an employer that people want to go to, rather than an 
employer that people realize is last on the bottom of the 
employee morale list and so maybe they are not really eager to 
work there.
    Senator Akaka. Thank you.
    Ms. Pope, you have been working at the FLRA since 1980. 
What do you believe are the biggest human capital challenges 
facing the FLRA? And what steps do you believe need to be taken 
to address these challenges and improve employee morale?
    Ms. Pope. The biggest challenge in my view is the human 
capital issue. I believe what has happened over the years is 
the extensive vacancies and extended vacancies over a number of 
years at all levels have impacted morale. There is a real 
crisis, if you will, with regard to whether we have the 
appropriate level of staff and in what positions to get our job 
done, to accomplish our mission effectively and efficiently.
    What I have done over the years is to work with my staff to 
try to produce timely, quality decisions to meet the 
performance goals of the agency. I look forward to working with 
Mr. Beck, should he become chairman and we are both confirmed, 
to engage collaboratively to address the issues. One of the 
things that the survey talked about in terms of improving 
morale is the need for employee engagement. So I am very happy 
to hear his views with regard to how to address morale because 
I do believe and share the view that getting the stakeholders 
into the room and hearing their views and sharing information 
regarding budget constraints--getting employee engagement, 
developing strategic plans and performance goals, and creating 
the understanding that management is interested in giving them 
the tools to accomplish those goals--will go a long way in 
terms of improving employee morale at the agency and employee 
satisfaction.
    I have been at the agency for 28 years, and it is 
disheartening to know that we rank last. It is disheartening to 
know that we are possibly an agency that cannot retain or 
recruit the best and the brightest to come to work with us. But 
I do know the FLRA has an important mission and one that is 
more critical as we move forward with potential pay reform and 
personnel changes.
    So I look forward to working with Mr. Beck to address the 
issues and the challenges facing the agency.
    Senator Akaka. Thank you for that.
    Other than issues relating to human capital, what do each 
of you believe are the biggest challenges facing the FLRA? And 
what steps do you plan to take to address them?
    Ms. Pope. Mr. Beck referred to the issue that we have a 
significant backlog of cases in the agency, so the biggest 
challenge, in my view, is the fact that currently, because of 
staffing issues and other issues, we are not meeting our own 
performance goals. We are not providing our customers timely, 
quality resolution of their disputes. So I would like to work 
together with the chairman to address those challenges, to 
develop strategies to bring the case writers and the senior 
management in the room to talk about how best to develop and 
look at our work processes, to see where we can improve our 
productivity and address the quality and timeliness of our 
decisions.
    Senator Akaka. Thank you. Mr. Beck.
    Mr. Beck. Senator, I did mention that backlog, and I think 
it is something that we need to take a very immediate and very 
serious look at. Let me put it this way: One of the questions I 
want to consider, if I am confirmed and go to the agency, is 
whether we can do a little more at the agency to help the 
development of the kind of disputes that they are bringing to 
us. One way to permit us to work on the existing backlog is to 
see if we can reduce the number of cases that are being filed. 
I don't know, but within the parameters of the statute, we may 
be able to do a little bit more to try to help agencies and 
their labor organizations to get along a little bit better, to 
play a little bit more nicely, to come to agreement on more 
issues that otherwise might become cases that come to the 
Authority for decision.
    And as I understand it, the agency has several methods of 
alternative dispute resolution that can be brought to bear once 
a case is filed. I wonder if the statute permits us to reach 
out just a little bit further, to the point even before cases 
are filed. I honestly don't know the answer to that, perhaps 
the answer is no. But in a sense, the Authority seems to me 
under the statute to have some residual authority that might go 
beyond simply deciding the cases that are presented to it, and 
we may be able to provide some training or some education and 
information to managers, employees, and labor organizations 
that are out there in the Federal sector so that we can maybe 
avoid having some of the disputes arise in the first place.
    Senator Akaka. Thank you. Over the past 8 years, there have 
been numerous proposals to change the structure of the FLRA and 
its role and responsibilities. Both the Departments of Defense 
and Homeland Security proposed having internal agency panels 
decide labor cases instead of the FLRA. There was also a 
proposal by the Senior Executives Association to merge the 
FLRA, the Equal Employment Opportunity Commission (EEOC), and 
the Merit Systems Protection Board (MSPB) into a single Federal 
employee appeals agency.
    What are your views on these proposals and do you believe 
that there are any structural changes that need to be made to 
the FLRA or the process for adjudicating unfair labor 
practices? Ms. Pope.
    Ms. Pope. In my experience, it is the FLRA that is uniquely 
poised and trained to be the neutral arbiter of Federal 
workplace disputes. So I was concerned, obviously, about the 
legislation you mentioned that would have narrowed our 
jurisdiction in a lot of cases and eliminated our jurisdiction 
in many others.
    I continue to believe that it is the FLRA in its current 
structure that should continue to have the jurisdiction over 
Federal workplace disputes. I believe with budget constraints--
certainly internally the FLRA has an ongoing obligation to look 
to ensure that its structure is the most efficient, the most 
productive. Internally we may need to assess whether we have 
the right people in the right jobs, in the right positions, and 
the right work processes to get the job done effectively. There 
should be an ongoing strategic assessment which includes 
employees and their representatives and career and presidential 
management at all levels.
    Senator Akaka. Well, what about the process for 
adjudicating unfair labor practices?
    Ms. Pope. I have not taken a personal position on the 
merger of the agencies, but I have been a part of the agency in 
the past when that has been presented as an issue to the FLRA 
by Congress. We worked with those other agencies to address and 
identify the areas where we have separate and distinct 
jurisdiction and separate and distinct expertise to address 
those issues. So, in my view, the work process that is 
currently a part of our regulatory structure is sufficient.
    Now, one of the things we have done over the years is to 
look to see where our regulations could be revised to better 
serve the parties. And we have made changes, introducing formal 
Alternative Dispute Resolution (ADR) principles and policies, 
as well as providing opportunities for training, education, and 
facilitation in the area of representation cases and petitions 
before they are filed.
    So, our own regulatory process could be reviewed and should 
be reviewed to address how charges are filed and where they are 
filed. And moving further to electronic filing and managing 
technology to more effectively handle our caseload and more 
effectively enable the parties to know how to file charges and 
what their rights are is something that I would endorse for 
internal review.
    Senator Akaka. Mr. Beck.
    Mr. Beck. Senator, the proposals and the possibilities that 
you referred to--of course it is not in vogue to use this 
phrase, but I will anyway--would really be above my pay grade. 
If I become a member and chairman of the Authority, it will not 
be up to me to say whether such a merger should take place. Of 
course, that will be between the Congress and the next 
President.
    As I look at that proposal that you mentioned of really 
merging the agencies and creating sort of a monolithic agency 
to deal with Federal sector employment issues, in my own mind I 
immediately think about the situation I am very familiar with 
in the private sector. And as you know, the FLRA is modeled on 
the National Labor Relations Board (NLRB), and in most ways 
structurally it functions like the National Labor Relations 
Board. And the EEOC also exists to be available to private 
sector employers and employees, and it deals with their 
disputes as well.
    And so we really have an analogous system of divided 
responsibilities between the agencies in the private sector 
that I am very familiar with, and I am not aware of anyone who 
is seriously suggesting that the NLRB and the EEOC should be 
merged to deal with private sector employment issues. And based 
on my experience, it would not be a good idea. And so that is 
really the best viewpoint I think I could bring to bear my own 
self on the suggestion of merging the agencies in terms of 
Federal sector employment matters.
    I suppose that as a matter of policy, of course, it would 
be for the Congress to make the policy decisions, but I suppose 
merging the agencies into a monolithic agency to deal with all 
issues might have the apparent virtue of simplicity. But I 
suppose the virtue of expertise might be lost as well, because 
as Ms. Pope said, the FLRA has particular expertise, and we all 
know that the MSPB has certain particular expertise as well, 
and it has a certain portfolio of responsibilities which is 
distinct. And the same is true for the EEOC.
    And so, as I think this through while I am sitting here, it 
strikes me that quite a bit of beneficial expertise might be 
lost.
    Senator Akaka. In addition to proposing changes to the 
process for adjudicating unfair labor practices, the 
Administration has proposed changes to the substance of Federal 
labor law: The rights of labor unions, the rights of 
management, what matters can be negotiated, and what remedies 
are available.
    What are your thoughts on these proposed changes? And what 
changes, if any, do you believe need to be made to the rights 
and protections afforded to employees and management under the 
Federal labor management statute?
    Mr. Beck. I have made Ms. Pope answer every question first, 
so I guess I will take this one. My answer, unfortunately, has 
to be very brief to that, Senator, and I am certainly not one 
to duck questions. But I must say that I have given a lot more 
thought in recent years to private sector labor relations than 
I have to the somewhat different nuances of Federal sector 
relations. As I sit here, I just do not really feel like I am 
capable of opining on whether certain substantive changes to 
rights and responsibilities of management and labor would be a 
good idea or a bad idea.
    If I go to the agency and I learn something more than I do 
know about Federal sector labor law in particular, I will be 
more than happy to come speak with you. I would love to testify 
again, Senator, if you think I might have anything of value to 
say on this subject, or meet with you and other Members of the 
Committee informally. Once I have developed a little more 
expertise on these questions, I certainly am quite willing to 
be a resource to you if that would ever be of benefit.
    Senator Akaka. Any comment, Ms. Pope?
    Ms. Pope. I do not have any statutory changes and 
amendments that I would identify. I note that the statute has 
served us well for almost 30 years, and we have a significant 
body of case law elucidating the statute and the rights and 
responsibilities of the parties.
    To the extent there may be pay and personnel changes that 
may test the statute that certainly were not contemplated when 
the statute was enacted, it will be up to the FLRA and their 
interpretation of the law to apply it to any current situations 
that were not contemplated at the time the statute was enacted. 
And with respect to other changes, the FLRA, at the direction 
of the chairman, at the direction of the Administration, would 
address and look to speak to any possible amendments that may 
be proposed by Congress or the Administration.
    Senator Akaka. Well, as you know, the chairman of the FLRA 
is to be the chief executive and administrative officer of the 
Authority. The Department of Justice Office of Legal Counsel 
has issued opinions stating that under such a designation the 
chairs of boards and commissions, like the FLRA, are 
responsible for the day-to-day administration of the policies 
of the boards. Substantive policymaking and regulatory 
authority is vested in the boards as a whole. However, these 
opinions recognize that any number of the day-to-day business 
practices may affect the board's policies and regulatory 
authority.
    Could each of you comment on whether you draw the line 
between the responsibilities of a member of the FLRA and the 
chairman of the FLRA? Ms. Pope.
    Ms. Pope. As a sitting member, I feel like I should go 
first in that answer. My response is I begin with the statute, 
which clearly delineates the role of a chairman and the role of 
a member. I believe and have benefited from Administrations 
that looked to be collaborative with members in addressing our 
statutory responsibility to provide leadership with respect to 
Federal sector labor-management relations. Also, there is a 
clearly defined role as the budget officer, having fiduciary 
responsibility, that rests with the chairman.
    Senator Akaka. Mr. Beck.
    Mr. Beck. Yes, Senator. There are some clear distinctions, 
and I look forward, if I am confirmed, to learning more about 
the precise contours of those distinctions. But it is clear 
that Congress intended a distinction in some respects between 
the member who serves as chairman and the other non-chairman 
members of the FLRA. The statute was passed in the late 1970s 
originally and then was amended 4 or 5 years later because, as 
originally passed, it had not designated the chairman as the 
CEO and administrative officer.
    And I think that certain Members of Congress, based on my 
review of the legislative history, such as Senator Stevens, for 
example, and Congresswoman Schroeder, came to the floor and 
said that we think that there is a lack of accountability and 
there is a certain amount of inefficiency going on at this 
relatively new agency because there is no individual who is 
clearly and unequivocally tasked with, say, budgetary 
responsibilities, human resources responsibilities, and 
purchasing responsibilities. So they did at that time add in 
that language that the chairman is the CEO and administrative 
officer. So, clearly, the chairman is supposed to have some 
duties and some responsibilities that are distinct from and 
greater than what the members do in terms of just managing the 
agency.
    With that said, though, while one person needs to be 
accountable, one person does not need to make all decisions 
from on high unilaterally without any input from anyone else. 
And that is not my management style, and I do not think, 
generally speaking, it is an effective management style. And so 
I don't know what others who have gone before me may have done, 
but what I would like to try to do, if I become the chairman of 
this agency, is to work with Ms. Pope, and if we get another 
member at the agency, to work with that member as well, and to 
work with the staff and others in a very kind of open-door, 
communicative, collaborative way so that as much as possible we 
can get some kind of consensus, or near consensus, on what 
needs to be done, at least on the big picture items.
    And if somebody has to decide how many paper clips are we 
going to buy this year, I will be happy to decide that, and 
probably other folks don't need to be bothered with that sort 
of question. But when it comes to major questions about 
managing this agency, I think that doing so in as collaborative 
a way as possible is obviously the way to go, and that is 
particularly true for me, frankly, because I have not spent the 
time at this agency that some other people have, that Ms. Pope 
has, for example.
    Senator Akaka. Well, I want to thank both of you for your 
responses. Before we close I would like to ask if either of you 
have any further remarks you would like to make about FLRA or 
your position in it, and what you would like to see come about 
at the FLRA. Ms. Pope.
    Ms. Pope. I have always held in high regard the FLRA and 
its mission and the responsibilities of the presidential 
appointees at the agency. I look forward to continuing in that 
role, if confirmed, and would be extremely excited and proud to 
be a part of turning around the agency, so that if I ever had 
the fortune of coming before you again, we are not ranked 31st 
of 31 small agencies, but we are ranked No. 1. So I am excited 
about the future of the agency and look forward to being a part 
of it, if confirmed.
    Senator Akaka. Mr. Beck.
    Mr. Beck. I want to associate myself with Ms. Pope's 
remarks and say essentially the same thing, Mr. Chairman. I 
think some things need to be done at this agency, clearly, and 
I look forward, if confirmed, to figuring out in short order 
what they are and doing the best that all of us can to make 
whatever changes are going to bring this agency up in terms of 
not just employee satisfaction and engagement, but in terms of 
processing cases, carrying out our core function of processing 
cases and resolving impartially and promptly the disputes that 
the parties bring to the agency. And I would like to also ask 
that maybe if you don't mind too much, I will come knock on 
your door at some point, and maybe some of the other Members of 
this Committee who are interested in what is going on at the 
FLRA because you have been looking at this agency longer than I 
have. And I would really value, not only collaborating and 
hearing from the people who are at the agency, like Ms. Pope 
and other folks, folks who are on the staff over there, but I 
would like to maybe be able to sit down, formally or 
informally, with you, or any other Members who might be 
interested, to get your views as well.
    Senator Akaka. Well, let me respond to you and tell you my 
door is open.
    Mr. Beck. Thank you, Senator.
    Senator Akaka. And I want to thank you both for your 
responses, and I feel your mission is a very important one. It 
is important because, as you succeed, there will be more 
productivity, people will be working better, and that is why we 
are all here. And so I want to thank each of you for being here 
today and congratulate you again on your nominations. I have no 
further questions at this time.
    The hearing record will remain open until the close of 
business tomorrow for Members of this Committee to submit 
additional statements or questions they may have. I know you 
both are anxious for your nominations to move forward. It is my 
hope that the Committee and the Senate will take action in the 
near future. Again, I want to thank you for bringing your 
families and supporters here today, and thank you again for 
your responses. This will be helpful to us in dealing with your 
nominations. And I will talk to the Committee and try to make 
every effort to move them as quickly as we can.
    Ms. Pope. Thank you, Mr. Chairman.
    Mr. Beck. Thank you, Senator.
    Senator Akaka. Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 3:30 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5576.001

[GRAPHIC] [TIFF OMITTED] T5576.002

[GRAPHIC] [TIFF OMITTED] T5576.003

[GRAPHIC] [TIFF OMITTED] T5576.004

[GRAPHIC] [TIFF OMITTED] T5576.005

[GRAPHIC] [TIFF OMITTED] T5576.006

[GRAPHIC] [TIFF OMITTED] T5576.007

[GRAPHIC] [TIFF OMITTED] T5576.008

[GRAPHIC] [TIFF OMITTED] T5576.009

[GRAPHIC] [TIFF OMITTED] T5576.010

[GRAPHIC] [TIFF OMITTED] T5576.011

[GRAPHIC] [TIFF OMITTED] T5576.012

[GRAPHIC] [TIFF OMITTED] T5576.013

[GRAPHIC] [TIFF OMITTED] T5576.014

[GRAPHIC] [TIFF OMITTED] T5576.015

[GRAPHIC] [TIFF OMITTED] T5576.016

[GRAPHIC] [TIFF OMITTED] T5576.017

[GRAPHIC] [TIFF OMITTED] T5576.018

[GRAPHIC] [TIFF OMITTED] T5576.019

[GRAPHIC] [TIFF OMITTED] T5576.020

[GRAPHIC] [TIFF OMITTED] T5576.021

[GRAPHIC] [TIFF OMITTED] T5576.022

[GRAPHIC] [TIFF OMITTED] T5576.023

[GRAPHIC] [TIFF OMITTED] T5576.024

[GRAPHIC] [TIFF OMITTED] T5576.025

[GRAPHIC] [TIFF OMITTED] T5576.026

[GRAPHIC] [TIFF OMITTED] T5576.027

[GRAPHIC] [TIFF OMITTED] T5576.028

[GRAPHIC] [TIFF OMITTED] T5576.029

[GRAPHIC] [TIFF OMITTED] T5576.030

[GRAPHIC] [TIFF OMITTED] T5576.031

[GRAPHIC] [TIFF OMITTED] T5576.032

[GRAPHIC] [TIFF OMITTED] T5576.033

[GRAPHIC] [TIFF OMITTED] T5576.034

[GRAPHIC] [TIFF OMITTED] T5576.035

[GRAPHIC] [TIFF OMITTED] T5576.036

[GRAPHIC] [TIFF OMITTED] T5576.037

[GRAPHIC] [TIFF OMITTED] T5576.038

[GRAPHIC] [TIFF OMITTED] T5576.039

[GRAPHIC] [TIFF OMITTED] T5576.040

[GRAPHIC] [TIFF OMITTED] T5576.041

[GRAPHIC] [TIFF OMITTED] T5576.042

[GRAPHIC] [TIFF OMITTED] T5576.043

                                 <all>

</pre></body></html>
